BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound copy
and 40 bound copies of the foregoing Petition for a Writ
of Certiorari in First Midwest Bank, guardian of the
estate of Michael D. LaPorta, a disabled person v. City
of Chicago, were sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
and e-mail service to the following parties listed below,
this 13th day of September, 2021:
Myriam Z. Kasper
Jonathon D. Byrer
Office of the Corporation Counsel
Appeals Division
Two N. LaSalle St.
Suite 580
Chicago, IL 60602
(312) 742-4961
Myriam.kasper@cityofchicago.org
Counsel for Respondent
Marisa Maleck
Counsel of Record
Joshua N. Mitchell
Alexander Kazam
King & Spalding LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 737-0500
mmaleck@kslaw.com
jmitchell@kslaw.com
akazam@kslaw.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Antonio M. Romanucci
Stephan D. Blandin
Bryce T. Hensley
Romanucci & Blandin, LLC
321 N. Clark Street
Suite 900
Chicago, IL 60654
(312) 458-1000

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 13, 2021.

Emily M~llin~
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

· ~,bZvi
h-vt_
~

Notary Public

13 , Ju d I
1

V

[seal]

-

